HHS/OIG, Audit -"Review of New York City's Efforts To Account For and Monitor Sub-Recipients' Use of Public Health
Preparedness and Response To Bio-Terrorism Program Funds,"(A-02-03-02010)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of New York City's Efforts To Account For and Monitor Sub-Recipients' Use of Public Health Preparedness
and Response To Bio-Terrorism Program Funds," (A-02-03-02010)
October 15, 2003
Complete Text of Report is available
in PDF format (236 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review was to determine whether the
New York City Department of Health and Mental Hygiene (DOHMH) and the Medical and Health Research Association of New
York City (MHRA) properly recorded, summarized and reported bio-terrorism preparedness transactions by specific focus
areas designated in cooperative agreements.   We found that DOHMH and MHRA accounted for bio-terrorism program
funds in accordance with the terms and conditions of the cooperative agreements with the Centers for Disease Control
and Prevention (CDC).  DOHMH officials stated that CDC funding had not been used to supplant existing State and
local programs.  In addition, we found that MHRA has adequate controls and procedures to monitor sub-recipient expenditures
of CDC funds.